•!.-

IN THE
SUPREME COURT OF THE UNITED STATES
NO.

UDOH ET AL,
Petitioner,
vs.
MINNESOTA DEPARTMENT OF HUMAN SERVICES ET AI
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI
TO REVIEW THE USCA8 CASE NO. 20-2040 IN
THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT (0:16-CV-03119-PJS-SER)

APPENDIX
Pages
November 10, 2020 Rehearing Order of the U.S. Eighth Circuit Court of Appeals
1-1
September 23, 2020 Judgment of the U.S. Eighth Circuit Court of Appeals
2-2

May 13, 2020 Order From The United States District Court, Honorable Schiltz
3-6

UNITED STATES COURTS OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-2040
Tonya Udoh; Emem Ufot Udoh, Individually, and on behalf of their minor
children, K.K.W. and K.C.W.
Plaintiffs - Appellants
v.
Minnesota Department of Human Services; Charles E. Johnson; Donothan R. Bartley;
Ann Norton; Daniel Engstrom; Catrina Blair; City of Maple Grove; Melissa Parker; City of
Maple Grove Police Department; City of Plymouth; City of Plymouth Police Department;
Molly Lynch; Kelvin Pregler; Independent School District, No 279; Joanne Wallen; Karen
Wegerson; Ann Mock; Cornerhouse; Patricia Harmon; Bill Koncar; Grace W. Ray; Linda
Thompson
Defendants - Appellees

Appeal from U.S. District Court for the District of Minnesota
(0:16-cv-03119-PJS)

ORDER
The petition for rehearing en banc is denied. The petition for rehearing by the
panel is also denied.

November 10, 2020
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.

/s/ Michael E. Cans

CASE 0:16-CV-03119-PJS-SER

Doc. 231

Filed 09/23/20

Page 1 of 1

UNITED STATES COURTS OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-2040
Tonya Udoh; Emem Ufot Udoh, Individually, and on behalf of their minor
children, K.K.W. and K.C.W.
Plaintiffs - Appellants
v.
Minnesota Department of Human Services; Charles E. Johnson; Donothan R. Bartley;
Ann Norton; Daniel Engstrom; Catrina Blair; City of Maple Grove; Melissa Parker; City of
Maple Grove Police Department; City of Plymouth; City of Plymouth Police Department;
Molly Lynch; Kelvin Pregler; Independent School District. No 279; Joanne Wallen; Karen
Wegerson; Ann Mock; Cornerhouse; Patricia Harmon; Bill Koncar; Grace W. Ray; Linda
Thompson
Defendants - Appellees

Appeal from U.S. District Court for the District of Minnesota
(0:16-cv-03119-PJS)

JUDGMENT
Before COLLOTON, WOLLMAN, and KOBES, Circuit Judges.
This court has reviewed the original file of the United States District Court. It is
hereby ordered by the court that the judgment of the district court is summarily affirmed.
See Eighth Circuit Rule 47A(a).
Appellants’ motion for appointment of counsel is denied as moot.
September 23, 2020
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Appellate Case: 20-2040

Page: 1

Dated Filed: 09/23/2020

Entry ID: 4958586

•>»

•'a

Positive
As of: March 15, 2021 1:26 PM Z

Udoh v. Minn. Dep't of Human Servs.
United States District Court for the District of Minnesota
May 13, 2020, Decided; May 13, 2020, Filed
Case No. 16-CV-3119 (PJS/SER)
Reporter
2020 U.S. Dist. LEXIS 84151 *; 2020 WL 2468743
Johnson.
TONYA UDOH and EMEM UDOH, individually, and on
behalf of their minor children, K.K.W., and K.C.W.,
Plaintiffs, v. MINNESOTA DEPARTMENT OF HUMAN
SERVICES; CHARLES E. JOHNSON; DONOTHAN
BARTLEY; ANN NORTON; DANIEL E. JOHNSON;
CATRINA BLAIR; CITY OF MAPLE GROVE; CITY OF
MAPLE GROVE POLICE DEPARTMENT; MELISSA
PARKER; CITY OF PLYMOUTH; CITY OF PLYMOUTH
POLICE DEPARTMENT; MOLLY LYNCH, KELVIN
PREGLER; INDEPENDENT SCHOOL DISTRICT, NO.
279; JOANNE WALLEN; KAREN WEGERSON; ANN
MOCK; CORNERHOUSE; PATRICIA HARMON; BILL
KONCAR; GRACE W. RAY; and LINDA THOMPSON,
Defendants.

Subsequent History: Affirmed by, Motion denied by,
As moot Udoh v. Minn. Deo't of Human Servs.. 2020
U.S. Add. LEXIS 37338 (8th Cir. Minn.. Sect. 23. 2020)

Prior History: Udoh v. Minn. Deo't of Human Servs..
2017 U.S. Dist. LEXIS 96018 (D. Minn.. Mav 5. 2017)

Christiana Martenson and Daniel D. Kaczor, HENNEPIN
COUNTY ATTORNEY'S OFFICE, for defendants
Donothan Bartley, Ann Norton, Daniel E.
Engstrom,1Catrina Blair, and Linda Thompson.

Nathan Midolo, UPTON & HATFIELD, and Paul D.
Reuvers, IVERSON REUVERS CONDON, for
defendants City of Maple Grove, City of Maple Grove
Police Department, Melissa Parker, City of Plymouth,
City of Plymouth Police Department, Molly Lynch, and
Kelvin Pregler.

John P. Edison and Michael J. Waldspurger, RUPP;
ANDERSON, SQUIRES & WALDSPURGER, for
defendants Independent School District No. 279,
Joanne Wallen, Karen Wegerson, and Ann Mock.

John R. Marti, DORSEY & WHITNEY LLP, and and
Lauren O. Roso, U.S. ATTORNEY'S OFFICE, for
defendants CornerHouse, Patricia Harmon, Bill Koncar,
and Grace Ray.

Judges: Patrick J. Schiltz, United States District Judge.

Core Terms
recantations, filing fee, Correction, lawsuit, vacate

Counsel: [*1] Tonya and Emem Udoh, Pro se.

Frederic J. Argir, MINNESOTA ATTORNEY
GENERAL’S OFFICE, for defendants Minnesota
Department of Human Services and Charles E.

Opinion by: Patrick J. Schiltz

Opinion

1 The caption incorrectly lists Engstrom's last name as
'’Johnson."

•
Page 2 of 4
2020 U.S. Dist. LEXIS 84151, *1

ORDER
In 2014, plaintiff Emem Udoh was convicted by a jury of
sexually abusing his two stepdaughters, K.K.W. and
K.C.W. ECF No. 187 at 2. On September 19, 2016,
Emem and his wife Tonya Udoh (collectively, the [*2]
"Udohs") brought this $ 1983 action against seemingly
every entity and individual who had anything to do with
investigating the sexual-abuse allegations against
Emem.2 ECF No. 1. This Court dismissed the Udohs’
lawsuit on September 12, 2017. ECF No. 163. The
Eighth Circuit affirmed on August 30, 2018, and the
United States Supreme Court denied certiorari on May
24, 2019. ECF Nos. 178, 181.
In April 2018, Emem sought post-conviction relief in
state court on various grounds, including two affidavits
allegedly written by K.K.W. and K.C.W. ECF No. 187 at
3. In those affidavits, K.K.W. and K.C.W. recanted their
prior testimony and swore that Emem had not sexually
abused them. See id. at 6. The affidavits were filed in
Hennepin County District Court, and an evidentiary
hearing was held to determine whether Emem was
entitled to post-conviction relief based on the victims'
recantations. See id. at 3-15. On direct examination by
Emem (appearing pro se), both girls testified that Emem
had not sexually abused them and that they had been
coerced into testifying against Emem at his 2014 trial.
See ECF Nos. 186-1, 186-3. The court found that the
girls' testimony was not credible, that the Udohs had
orchestrated the girls' [*3] recantations,3 and that
Emem was not entitled to post-conviction relief. ECF
No. 187 at 21.
Shortly thereafter, the Udohs filed a motion in this Court
seeking to vacate the 2017 dismissal of their $ 1983

2 The Udohs also brought a number of claims under statutes
other than 42 U.S.C. S 1983 (including 42 U.S.C. 5 1985 and
several Minnesota statutes). The Court uses the term "§ 1983
action" as shorthand to refer to all of the claims asserted by
the Udohs in this action. See ECF No. 1.
3 The court’s decision was based in part on a series of
recorded jail calls between the Udohs. In one call, Emem
spelled the word "recantation" for Tonya. ECF No. 187 at 15.
In others, the Udohs quoted sections of what would ultimately
become the victims' affidavits back and forth to each other,
editing as they went. Id. And in yet another, the Udohs
discussed questions that their daughters were likely to face at
the upcoming evidentiary hearing along with proposed
answers. Id. at 16.

action under Fed. R. Civ. P. 60 on the basis of the
victims' purported recantations.4 For the reasons that
follow, the Udohs1 motion is denied.
The Udohs first seek relief under Rule 60(a). asking that
this Court "correct errors of omission or oversight in its
prior judgment." ECF No. 185 at 16. But the Udohs'
motion is far outside the scope of Rule 60(a), which
provides for the correction of "a clerical mistake or a
mistake arising from oversight or omission." The Udohs
base their motion on recantations that occurred in 2018,
not on a "clerical mistake" or "mistake arising from
oversight or omission" made by this Court in 2017. See,
e.g., J.C. Research. Inc, v. Speed Commerce. Inc., No.
14-CV-3752 (WMW/SER), 2018 U.S. Dist. LEXIS 3421.
2018 WL 344975. at *1 (D. Minn. Jan. 9. 2018)
(correcting mathematical error under Rule 60(a)Y.
Meecorp Capital Mkts., LLC v. PSC of Two Harbors.
LLC. No. 09-CV-2067 (DWF/UB). 2012 U.S. Dist.
LEXIS 205495. 2012 WL 12896250. at *3 (D. Minn. Apr.
10. 2012) (granting Rule 60(a) motion to correct caption
where defendants were improperly referred to as
"Gandolf Holding, LLC," rather than "Gandolf Holdings,
LLC."). The relief the Udohs seek-namely, vacating the
court's prior order, reopening final judgment, allowing
the Udohs to amend their pleadings, and "Adjustment or
Correction of Judgment from 'With Prejudice’ [*4] to
'Without Prejudice'"-is not available under Rule 60(a).
ECF No. 185 at 15; see Kocherv. Dow Chem. Co.. 132
F.3d 1225. 1229 (8th Cir. 1997) {Rule 60(a) corrections
are permitted in order to accurately reflect the decision
the court actually made, not to alter the substance of the
decision); Thomas v. Bzoskie, No. 15-CV-2197
(JRT/KMM), 2017 U.S. Dist. LEXIS 192531. 2017 WL
5633094. at *4 (D. Minn. Nov. 21. 2017) (clerical
mistakes under Rule 60(a) "are not grounds for relief
from final judgment").
The Udohs next ask the Court to vacate its judgment on
the basis of "mistake, neglect, fraud or new evidence
under Rule 60(b)." ECF No. 185 at 16. Rule 60(b)
provides, in relevant part, that a court may relieve a
party from a final judgment for "(1) mistake,
inadvertence, surprise, or excusable neglect; (2) newly
discovered evidence that, with reasonable diligence,
could not have been discovered in time to move for a
new trial under Rule 59(b): [or] (3) fraud . . .,
misrepresentation, or misconduct by ah opposing
party[.]" The Udohs' Rule 60(b) argument fails for

4 The victims' affidavits have not been submitted to this Court,
but are described at ECF No. 187 at 6.

V

‘

*

Page 3 of 4
2020 U.S. Dist. LEXIS 84151, *4
multiple reasons.
To begin with, the motion is untimely. Under Rule 60(c).
a motion for relief under subdivisions (b)(1)-(3) must be
brought no later than one year after the entry of
judgment by the trial court. The one-year period was not
tolled, as the Udohs assert, until the date that the United
States Supreme Court denied certiorari. See Jones v.
Swanson. 512F.3d 1045. 1048-49.(8th Cir. 2008) (oneyear limitations period for Rule 60 motion began running
on date initial [*5] judgment was issued); The Tool Box.
Inc, v. Ogden City Corp,. 419 F.3d 1084. 1088-89 (10th
Cir. 2005) ("[T]he one-year time limit in Rule 60(b) runs
from the date the judgment was 'entered* in the district
court; it does not run from the date of an appellate
decision reviewing that judgment."); Fed. Land Bank of
St. Louis v. Cuoples Bros.. 889 F.2d 764. 766-67 (8th
Cir. 1989) ("It is well established that the pendency of an
appeal does not toll the one-year maximum period for
filing motions under Rule 60(b)(1)-(3)” (collecting
cases)). This Court entered judgment on September 12,
2017, and the Udohs did not move for Rule 60(b) relief
until February 5, 2020. The Udohs' request for relief
pursuant to Rule 60(b)(1). (b)(2). and (b)(3) is therefore
denied as untimely.
Even if the Udohs' Rule 60(b) motion were timely, the
Court would deny the motion on the merits. The 2018
recantations of K.K.W. and K.C.W. do not demonstrate
"mistake, inadvertence, surprise, or excusable neglect"
within the meaning of Rule 60(b)(1). Cf. Union Pac. R.R.
Co. v. Progress Rail Servs. Coro.. 256 F.3d 781. 783
(8th Cir. 2001) (default due to faulty record-keeping
excused under Rule 60(b)(1)): Ceridian Com, v. SCSC
Coro.. 212 F.3d 398. 404 (8th Cir. 2000) ("excusable
neglect" refers to, for example, failure to comply with an
ambiguous procedural rule). Nor have the Udohs
alleged fraud, misrepresentation, or misconduct in this
litigation by an opposing party under Rule 60(b)(3).5

5The Court notes that, in their recantation testimony, K.K.W.
and K.C.W. purported to identify defendant Molly Lynch as
one of the individuals who pressured them to provide false
testimony against Emem in 2013. See. ECF .No. 186-1 at 1617, 54-58, 70; ECF hJo. 186-3 at 17, 50,-73, 87. But this is part
of the alleged "fraud" for which Lynch was sued. See EGF No.
1 at 1f 98 (alleging that Lynch "conducted the .interrogation of
K.K.W. and K.C.W. in an incompetent manner .with powerful
and coercive influences designed to elicit false accusations").
It is not "fraud" that occurred in connection with the litigation,
which is the "fraud" to which Rule 60(b)(3) refers. See Roger
Edwards LLC v. Fiddes & Son. Ltd.. 427 F.3d 129. 134 (1st
Cir. 2005) (Rule 60(b)(3) addresses "fraud or misstatements

And finally, the Udohs are not entitled [*6] to relief
based on "newly discovered evidence" under Rule
60(b)(2). To succeed under Rule 60(b)(2). the Udohs
must show that the evidence is "material," meaning that
'"there is a reasonable probability that the outcome of
the proceeding would have been different if the
evidence had been disclosed.'" Holmes v. United
States. 898 F.3d 785, 792 (8th Cir. 2018) (quoting
United States v. Hernandez. 299 F.3d 984. 990 (8th Cir.
2002)). Here, the 2018 recantations of K.K.W. and
K.C.W. would have no impact on the outcome of the
Udohs' civil lawsuit.
In dismissing this lawsuit in 2017, this Court found that
the individual defendants were entitled to qualified
immunity because their actions were "’properly founded,
upon a reasonable suspicion of child abuse.’" ECF No.
163 at 4-5 (quoting K.D. v. Ctv. of Crow Wing. 434 F.3d
1051. 1056 (8th Cir. 2006)).6 The fact that K.K.W. and

perpetrated in the course of litigation or other misconduct
aimed directly at the trial process," and not "non-litigation
conduct"); see also Murphy v.Mo. Deo't of Com. 506 F.3d
1111. 1117 (6th Cir. 2007) ("To prevail on a motion under Rule
60(b)(3). the movant must show, with clear and convincing
evidence, that the opposing party engaged in a fraud or
misrepresentation that prevented the movant from fully and
fairly presenting its case." (quotation marks and citations
omitted)); Jones v. Jefferson City Pub. Sch.. No. 2:18-CV4054. 2019 U.S. Dist. LEXIS 80986. 2019 WL 2110578. at *2
(W.D. Mo. May 14. 2019) ("[T]he fraud Mr. Jones alleges
concerns the merits of the case, not the process of the
litigation. Relief thus is not available to Jones under Rule
60(b)(3).”).
Moreover, even if Lynch’s alleged "fraud" occurred in
connection with this litigation, the Udohs have not established
the existence of that "fraud" by clear and convincing evidence,
and therefore they would still not be entitled to relief. See
Cook v. City of Bella Villa. 582 F.3d 840. 855 (8th Cir. 2009)
(to prevail on a Rule 60(b)(3) motion, a plaintiff must show
fraud, misrepresentation, or misconduct by clear and
convincing evidence).
To the extent that the Udohs intend to allege fraud on the part
of a third-party witness under Rule 60(b)(6) rather than fraud
by an opposing party under Rule 60(b)(3). their motion is
denied for the same reasons. See Lester y. Empire Fire and
Marine Ins. Co.. 653 F.'2d 353. 354 (6th Cir. 1981) (”[l]t would
be unreasonable, absent special circumstances, to permit
reopening of a judgment on grounds of third-party fraud when
a similar motion based on fraud by a party would be barred by
Rule 60(b)(3).”): see also Jones v. Swanson. 512 F.3d 1045.
1049 (8th Cir. 2008).

^4

Page 4 of 4
2020 U.S. Dist. LEXIS 84151, *6
K.C.W. recanted their testimony in 2018 does nothing to
undermine this Court's finding that the defendants acted
reasonably in 2013 based on what they knew at that
time. In 2013, both K.K.W. and K.C.W. were telling the
defendants that Emem had sexually abused them.
Thus, even if the Udohs' Rule 60(b) motion was timely,
this Court would not disturb its prior order.
Finally, Emem has filed two motions seeking leave to
proceed in forma pauperis ("IFP") "in this District Court
for cost and fees; and for any subsequent appeal in the
Eighth Circuit [*7] Court of Appeals." ECF Nos. 198,
202. Emem has already paid the filing fee in this matter,
and thus the Court construes this as an application to
proceed IFP on appeal. Because Emem is a "prisoner"
within the meaning of 28 U.S.C. $ 1915(h). the appellate
filing fee cannot be waived altogether. 28 U.S.C. §
1915(b): Henderson v. Norris. 129 F.3d 481. 483-84
(8th Cir. 1997) (per curiam). Instead, an order granting
IFP status to a prisoner-appellant merely permits him to
pay the filing fee for his appeal in installments, rather
than paying the entire amount in advance. In re Tyler.
110 F.3d 528. 529-30 (8th Cir. 1997). If Emem wishes to
appeal this order without prepaying the full $505
appellate filing fee, he may submit a complete IFP
application, which must include a certified copy of his
prison trust fund account statement for the past six
months, so that this Court may determine the
appropriate initial partial filing fee to be assessed. See
28 U.S.C. 8 1915(b)(1).
In closing, the Court reminds Emem that this lawsuit
pertains only to whether the defendants should pay
damages to the Udohs for their actions in investigating
the sexual-abuse claims in 2013. This lawsuit has
nothing whatsoever to do with whether Emem's
conviction and sentence were lawful, nothing
whatsoever to do with the legality of his current
conditions of confinement (such as his [*8] access to
the prison library), and nothing whatsoever to do with
his immigration status. This Court has no power to
vacate Emem's conviction or sentence, or to order the
Minnesota Department of Corrections to treat Emem
differently, or to order federal immigration authorities not

6 The Udohs' claims against the government entities were
dismissed for failure to plausibly allege that those defendants
maintained a policy, custom, or procedure that caused
constitutional injury to the Udohs. Monell v. Deo't of Social
Servs.. 436 U.S. 658. 694. 98 S. Ct. 2018. 56 L Ed. 2d 611
(1978). The victims' recantations could not, of course, affect
the dismissal of these claims.

to deport Emem.
If Emem wishes to attack the legality of his conviction or
sentence, he must seek and receive the permission of
the United States Court of Appeals for the Eighth Circuit
to file a second or successive application for a writ of
habeas corpus. 28 U.S.C. $ 2244(b). (Emem has
already filed two unsuccessful habeas actions.) If Emem
wishes to challenge the conditions of his confinement,
he must file a new action under 42 U. S. C. $ 1983. And if
Emem wishes to resist the government's attempt to
deport him, he must do so in proceedings before an
immigration judge or the Board of Immigration Appealsor in an appeal from those proceedings to the Eighth
Circuit.
In recent weeks, Emem has been continuously filing
letters and other materials in this action. But virtually
none of those letters or other materials have anything to
do with this litigation or seek any relief that this Court
can provide in this action. With the exception of a
completed [*9] IFP application, the Court will not
respond to any further filings from Emem in this matter.
ORDER
Based on the foregoing, and on all of the files, records,
and proceedings herein, IT IS HEREBY ORDERED
that:
1. Plaintiffs Emem Udoh's and Tonya Udoh's
motion to vacate order and judgment [ECF No. 185]
is DENIED.
2. Plaintiff Emem Udoh's motions for leave to
appeal in forma pauperis [ECF Nos. 198, 202] are
DENIED.
Dated: May 13, 2020
/si Patrick J. Schiltz
Patrick J. Schiltz
United States District Judge

End of Document

